No. 20-1670
3fn Wt) t

Supreme Court of tfje ®n(teb ibtate#
William J. Golz,
Petitioner,
v.
Marcia L. Fudge,
in her official capacity as Secretary of the
United States Department of Housing
and Urban Development,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Tenth Circuit

APPENDIX TO
PETITIONER’S SUPPLEMENTAL BRIEF

TABLE OF APPENDICES
Page

App.
A.

Declaration of Annette T. Golz and William Golz

la-sb

B.

Rule 12.6-letter, with certificate of service (COS)

2a-sb

C.

COS for the petition for writ of certiorari.....................................

4a-sb

D.

Mot. to the Clerk to remove altered appendix, with proof of
delivery (POD)....................................................................................

5a-sb

Mot. to the Court to remove altered appendix, and for related
relief, with COS and POD................................................................

9a-sb

Mot. to the Court to delay distribution of Pet. pending its or­
der on Mot. to remove altered appendix, with COS and POD ..

16a-sb

E.
F.
G.

Mot. to the Court to compel Clerk to perform his duty, with
Exh. 1, Attachments A—C, COS, and POD...................................
22a-sb
Errata: "[£] bid" belongs after parentheses it now precedes..... 24 T| e
redesignate paragraph "i" as "h" and "k" as "i".........
24
redesignate paragraph "c" as "b"....................................
25

H.

Attach. D. to Exh. 1 of Mot. to the Court to compel the Clerk,
with COS and POD............................................................................

48a-sb

Letter to C.J. (for “Enel. (1): Mot. to the Court to compel
[C]lerkto perform his duty”, see App. G, infra), with POD......

53a-sb

POD for transmittal to C.J. of Attach. D. to Exh. 1 (for At­
tach. D, see App. H, infra)................................................................

55a-sb

I.

J.

(ia-sb)

DECLARATION OF ANNETTE T. GOLZ AND WILLIAM GOLZ
The documents in appendices B—I, infra, are, with the exception of brack­
eted numbers in the lower right corner of each page, duplicates of the originals sent
to the Court and Chief Justice. Dr. Golz wrote and signed the main documents and,
with his wife, Annette T. Golz, placed them in envelopes and transmitted them by
the means identified. The proofs of delivery (PODs) in appendix D-J, infra* are
copies of electronic documents obtained from the carrier named on the POD.
On August 21, 2021, Dr. Golz re verified that the PDF file could be down­
loaded from the URL in note 1, page 1, of exhibit 1 (App. G, infra, 28a-sb) of the mo­
tion to compel the Clerk (motion). Each page in attachment A to exhibit 1 of the
motion provides the URL where that screen capture was accessed on November 7,
2018. Id., at 38-40a-sb; 3 R. 52-54. Dr. or Ms. Golz wrote and transmitted, or re­
ceived, as indicated, the correspondence cited in attachments B (App. G, infra, 42—
43a-sb) and C (id., at 45a-sb; 3 R. 58) to exhibit 1 of the motion.
Each of us declare under penalty of perjury that each fact we have identi­
fied in this supplemental brief and its appendices as being a fact of which we have
personal knowledge is to the extent of our knowledge and to the best of our abilities
true and correct.
Executed August 21, 2021.

Annette T. Golz
*

William Golz, Ph.D.

Proof of delivery is available but superfluous to appendices B and C because the Rule 12.6letter and its certificate of service (COS) were transmitted as a single certified-mail piece to­
gether with (but separated by a purple-colored sheet of paper from) the petition, its appen­
dix, and its COS, which, as the Court’s docket shows, was received by the Clerk.
[la-sb]

APPENDIX

29714 North 152nd Way
Scottsdale, Arizona 85262
Phone: (480) 816-5019

William Golz, Ph.D.
May 13, 2021

Via Certified Mail No. 7019 0140 0000 4555 1356
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N. E.
Washington, D.C. 20543
Re: William J. Golz v. Marcia L. Fudge, Secretary of HUD
Mr. Harris:
This letter is being provided in conformity with Supreme Court Rule
12.6 to notify the Court that Marcus J. Golz and Matthew J. Golz (Messrs.
Golz) were named in lower-court orders but have no interest in the outcome
of the above-captioned petition for a writ of certiorari.
On August 14, 2017, the U. S. Department of Housing and Urban De­
velopment (HUD) sought a default for Messrs. Golz which the District Court
Clerk entered on August 15, 2017. R., Vol. 1, at 7:29 and 30, Carson v. Golz,
No. 19-1242 (10th Cir. 2020). HUD failed to seek a default judgment and
Messrs. Golz continued to be named as defendants. See 2 R. 329 f 2.
Sincerely,

William Golz, Ph.D.

Cc: See attached Certificate of Service.

[2a-sb]

CERTIFICATE OF SERVICE
I hereby certify that a copy of the May 13, 2021 letter transmitted
herewith and notifying the Court that Marcus J. Golz and Matthew J. Golz have no
interest in the outcome of the petition captioned William J. Golz v. Marcia L. Fudge
will be sent by first-class mail, postage prepaid, to:
Marcus J. Golz, P.E.
552 Hillsdale Street
Helena, MT 59601

Matthew J. Golz
565 Congress Avenue
Havre De Grace, MD 21078

I further certify that a copy of the above letter will be transmitted by
first-class mail, postage prepaid, to:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001
(202) 514-2203
I declare under penalty of perjury that the foregoing is true and correct
and that to the best of my knowledge all parties required to be served have been
served.
EXECUTED on May 13, 2021.

William Golz, Ph.D.
Petitioner, Pro Se
29714 North 152nd Way
Scottsdale, Arizona 85262
Phone: (480) 816-5019

[3a-sb]

CERTIFICATE OF SERVICE
I hereby certify that, in conformance with the Supreme Court Order of
April 15, 2020 as updated November 13, 2020, one original of the petition for a writ
of certiorari captioned William J. Golz v. Marcia L. Fudge will be sent by first-class
mail (Certified Mail No. 7019 0140 0000 4555 1356), postage prepaid, to:
Supreme Court of the United States
One First Street, N. E.
Washington, DC 20543
I further certify that one copy of the petition will be transmitted by
first-class mail, postage prepaid, to:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001
(202) 514-2203
I declare under penalty of perjury that the foregoing is true and correct
and that to the best of my knowledge all parties required to be served have been
served.
EXECUTED on May 13, 2021.

William Golz, Ph.D.
Petitioner, Pro Se
29714 North 152nd Way
Scottsdale, Arizona 85262
Phone: (480) 816-5019

[4a-sb]

29714 North 152nd Way
Scottsdale, Arizona 85262
Phone: (480) 816-5019

William Golz, Ph.D.
June 3, 2021

Via Email & Federal Express Overnight
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N. E.
Washington, D.C. 20543
Re: Motion, Golz u. Fudge, No. 20-1670.
Dear Mr. Harris:
This letter is to move: (i) that you immediately remove from the
docket the current appendix which includes 38 pages that your office added,
replacing it with the original appendix provided to the Court with my petition
and (ii) that you remove from the docket the current Proof of Service which is
for the letter prescribed by Rule 12.6, replacing it with the Proof of Service
provided to the Court with my petition. See Rules 29.3 & 29.4(a).
The above-captioned petition seeking review of the Tenth Circuit's or­
der and judgment of September 21, 2020 provided an appendix consisting of
pages la-50a. Your office added 38 pages to my appendix giving the Court
the false impression that I believe those pages are relevant to the petition.
Rule 14.5 provides, in pertinent part, that, “If the Clerk determines
that a petition submitted timely and in good faith is in a form that does not
comply with this Rule ... the Clerk will return it with a letter indicating the
deficiency. A corrected petition submitted in accordance with Rule 29.2 no
more than 60 days after the date of the Clerk’s letter will be deemed timely.”
If you believe that my exclusion of the 38 pages comprising the Magis­
trate Judge's Recommendations which you added to the appendix constitutes
a deficiency, please send me a letter in conformance with Rule 14. 5. I will
reply within 60 days of the date thereof.

[5a-sb]

Sincerely,

William Golz, Ph.D.

Cc: Elizabeth B. Prelogar
Acting Solicitor General
U.S. Department of Justice
Office of the Solicitor General
Washington, DC 20530
SupremeCtBriefs@U SDOJ. gov

[6a-sb]

29714 North 152nd Way
Scottsdale, Arizona 85262
Phone: (480) 816-5019

William Golz, Ph.D.
June 3, 2021

Via Email & Federal Express Overnight
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N. E.
Washington, D.C. 20543
Re: Supplement to June 3, 2021 Motion, Golz v. Fudge, No. 20-1670.
Dear Mr. Harris:
You added 38 pages to my appendix without my authorization. This accords
neither with the Supreme Court Rules nor with the trace of legal authority prescrib­
ing that a litigant retains control over his, or her, pleadings.
My motion asks only this: if you believe that my petition is deficient in its ex­
clusion of the 38 pages you added, that you adhere to the provision of Rule 14.5,
that “the Clerk [will] return it with a letter indicating the deficiency.” I will then
provide, “A corrected petition submitted in accordance with Rule 29.2 no more than
60 days after the date of the Clerk’s letter [which] will be deemed timely.”
In sum, it is your prerogative to determine whether my appendix is in compli­
ance with Rule 14.5. It is my responsibility, and my right, to respond to your in­
structions by bringing my appendix into compliance, either by adding the requested
documents or proffering legal arguments as to why the appendix complies with the
applicable Rules without the added material.
Sincerely,

William Golz, Ph.D.
Cc: Elizabeth B. Prelogar, Acting Solicitor General
[7a-sb]

FecEx.

June 28, 2021

Dear Customer,

The following is the proof-of-delivery for tracking number: 787925124444

Delivery Information:
Delivered

Status:
Signed for by:

D.GAMBLE

Service type:

FedEx Priority Overnight

Special Handling:

Deliver Weekday;
No Signature Required

Delivered To:

Shipping/Receiving

Delivery Location:

3035 V ST NE

Washington, DC, 20543
Delivery date:

Jun 4, 2021 09:21

Shipping Information:
Tracking number:

787925124444

Recipient
Atn:Hon.Scott S. Harris, Clerk of Court/ Suprm Court of U.S.
1 First Street, N.E.
Washington, DC, US, 20543

Fe&iIk

Ship Date:

Jun 3, 2021

Weight

0.5 LB/0.23 KG

Shipper
ANNETTE GOLZ,
29714 N 152ND WAY
SCOTTSDALE, AZ, US, 85262

f^cfx fcdEx fw
[8a-sb]

Thank you for choosing FedEx

No. 20-1670

in me

Supreme Court of tfje ®mteb States;
William J. Golz,
Petitioner,
v.
Marcia L. Fudge,
in her official capacity as Secretary of the
United States Department of Housing
and Urban Development,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Tenth Circuit
MOTION TO THE COURT TO DIRECT THE CLERK TO:
ISSUE A CORRECTED RULE 12.3 NOTICE,
CORRECT THE PROOF OF SERVICE, AND REMOVE
THE 38 PAGES ADDED TO THE APPENDIX BY THE CLERK

William Golz, Ph.D.
Petitioner, Pro Se
29714 North 152nd Way
Scottsdale, Arizona 85262
Phone: (480) 816-5019

[9a-sb]

1. FACTS AND AUTHORITIES

a. The petition notes that William Golz earned his Ph.D. as a Louisiana
Board of Regents' Fellow, that he has professional degrees of M.S. and B.S. (cum
laude) in civil engineering, and that he is addressed by his earned title, Dr. Golz.
Pet., at 2 1 2 and n. 3. Dr. Golz is retired from teaching.1
b. Dr. Golz filed the petition for writ of certiorari on May 13, 2021 with
its appendix comprising numbered pages la-50a.
c. The Clerk docketed the petition on June 1, 2021 with a link to a docu­
ment titled “Appendix” but to which the Clerk had added 38 pages after page 50a.
d. On June 3, 2021, Petitioner transmitted a letter to the Clerk, “to move:
(i) that you immediately remove from the docket the current appendix which in­
cludes 38 pages that your office added, replacing it with the original appendix pro­
vided to the Court with my petition and (ii) that you remove from the docket the
current Proof of Service which is for the letter prescribed by Rule 12.6, replacing it
with the Proof of Service provided to the Court with my petition.” That letter was
delivered by Federal Express on June 4, 2021.
e. On June 4, 2021, Dr. Golz received the Supreme Court Rule (Rule) 12.3
notice (Rule 12.3 Notice) dated June 1, 2021 with the salutation, “Dear Mr. Golz,”
addressed to, and with the pre-printed signature block:
“Mr. William J. Golz
29714 North 152nd Way
Scottsdale, AZ 85262 ”
1

In “Op-Ed Urging Jill Biden To Drop The ' Dr.' Sparks Outrage Online,” Rachel Treisman re­
ported that, “The Merriam-Webster dictionary noted ... that the word 'doctor' comes from
the Latin word for 'teacher,'” National Public Radio, Dec. 13, 2020, https://www.npr.org/
2020/12/13/946068319/op-ed-urging-jill-biden-to-drop-the-dr-sparks-outrage-online.
1
[lOa-sb]

f. Although the Rules are silent on whether the Clerk will act on a mo­
tion to correct irregularities by his staff, “The Supreme Court, on the other hand,
has inherent supervisory authority over its Clerk. ... Thus, 'it is the right and duty
of the Supreme Court to correct the irregularities of its officer and compel him to
perform his duty.' Griffin v. Thompson, 43 U.S. (2 How.) 244, 257, 11 L.Ed. 253
(1844), quoted in Borntrager[ v. Stevas], 772 F.2d[419, ] 420[ (8th Cir. 1985)].” In re
Marin, 956 F.2d 339, 340 (D.C. Cir. 1992) (ellipsis and brackets in original omitted).
g. For the above reasons, and those given below, Dr. Golz (Movant) files
this motion to the Court, to:
2. REMOVE THE 38 PAGES ADDED TO THE APPENDK BY THE CLERK
a. Dr. Golz's June 3, 2021 motion to the Clerk (Motion to the Clerk) noted:
Rule 14.5 provides, in pertinent part, that,
“If the Clerk determines that a petition sub­
mitted timely and in good faith is in a form
that does not comply with this Rule ... the
Clerk will return it with a letter indicating
the deficiency. A corrected petition submitted
in accordance with Rule 29.2 no more than
60 days after the date of the Clerk’s letter
will be deemed timely.”
If you believe that my exclusion of the 38
pages comprising the Magistrate Judge's
Recommendations which you added to the
appendix constitutes a deficiency, please
send me a letter in conformance with Rule
14. 5. I will reply within 60 days of the date
thereof.
b. Dr. Golz's June 3, 2021 supplement to the Motion to the Clerk con­
cluded :
2

[lla-sb]

In sum, it is your prerogative to determine
whether my appendix is in compliance with
Rule 14.5. It is my responsibility, and my
right, to respond to your instructions by
bringing my appendix into compliance, either
by adding the requested documents or prof­
fering legal arguments as to why the appen­
dix complies with the applicable Rules with­
out the added material.
(emphasis added).
c. Movant RESPECTFULLY REQUESTS that the Court direct the Clerk to: (i)
remove the document with the Clerk's added 38-pages which is falsely identified as
the petition's appendix and replace it with Dr. Golz's true appendix comprising only
numbered pages la-50a or (ii) remove the petition from the docket and return it
with a letter noting what the Clerk believes to be deficiencies and requesting my re­
sponse within 60 days of the date of the Clerk's letter pursuant to Rule 14.5.
d. COMMENT: If the Clerk is directed to exercise option (i), the Court will
then need to address 3 and 4. Infra. If, on the other hand, the Clerk exercises op­
tion (ii), 3 and 4, infra, will not be applicable until Dr. Golz responds to the Clerk's
Rule 14.5 letter.
3. Direct the Clerk to correct the Proof of Service
Movant RESPECTFULLY REQUESTS that the Court direct the Clerk to re­
move from the docket the wrong “ Proof of Service ” that documents transmittal of a
Rule 12.6 letter and replace it with the correct certificate of service that was trans­
mitted with the petition in compliance with Rules 29.3 & 29.4(a).

3

[12a-sb]

4. Direct the Clerk to issue a corrected Rule 12.3 Notice
a. Courteousness is fundamental to civil discourse and an integral part of
the Court's history and mission. That tradition is not well served when the respect
required of litigants coming before the Court is not extended by the Clerk and mem­
bers of his staff to those same litigants.
b. Movant RESPECTFULLY REQUESTS that the Court direct the Clerk to
mail out a corrected Rule 12.3 Notice with the salutation, “Dear Dr. Golz,” and with
the address and signature block:
William J. Golz, Ph.D.
29714 N. 152nd Way
Scottsdale, AZ 85262
(480) 816-5019,
which is the proper form of address for someone with an earned Ph.D. and is simply
consistent with information provided and the requests clearly made in the petition.
DATED this 5th day of June, 2021.
Respectfully submitted,

William Golz, Ph.D.
Petitioner, Pro Se
29714 North 152nd Way
Scottsdale, Arizona 85262
Phone: (480) 816-5019

4
[13a-sb]

CERTIFICATE OF SERVICE
I hereby certify that, in conformance with the Supreme Court Order of
April 15, 2020 as updated November 13, 2020, one original of the motion to the
Court in William J. Golz v. Marcia L. Fudge, No. 20-1670, transmitted with this
certificate of service will be sent by Priority Mail, Certified No. 7019 2280 0000 9013
0897, postage prepaid, to:
Office of the Clerk
Supreme Court of the United States
One First Street, N. E.
Washington, DC 20543
I further certify that one copy of the petition will be transmitted by
first-class mail, postage prepaid, to:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001
(202) 514-2203
I declare under penalty of perjury that the foregoing is true and correct
and that to the best of my knowledge all parties required to be served have been
served.
Executed on June 5, 2021.

William Golz, Ph.D.
Petitioner, Pro Se
29714 North 152nd Way
Scottsdale, Arizona 85262
Phone: (480) 816-5019

[14a-sb]

f

UNITED STATES
POSTAL SERVICE

June 10, 2021
Dear William Golz:
The following is in response to your request for proof of delivery on your item with the tracking number:
7019 2280 0000 9013 0897.
Item Details
Status:
Status Date / Time:
Location:
Postal Product:
Extra Services:

Delivered
June 10, 2021, 11:08 am
WASHINGTON, DC 20543
Priority Mail
Certified Mail™
Insured
Return Receipt Electronic

Shipment Details
11b, 9.6oz

Weight:
Recipient Signature
I

tn

Signature of Recipient:

mm

Address of Recipient:

'■sums#

Note: Scanned image may reflect a different destination address due to Intended Recipient's delivery instructions on file.

Thank you for selecting the United States Postal Service® for your mailing needs. If you require additional
assistance, please contact your local Post Office™ or a Postal representative at 1-800-222-1811.
Sincerely,
United States Postal Service
475 L'Enfant Plaza SW
Washington, D.C. 20260-0004

[15a-sb]

No. 20-1670
3fn tKfje

Supreme Court of tfje ®mteb States;
William J. Golz,
Petitioner,
v.
Marcia L. Fudge,
in her official capacity as Secretary of the
United States Department of Housing
and Urban Development,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Tenth Circuit
MOTION TO DELAY OR RECALL DISTRIBUTION OF THE
PETITION PENDING CONSIDERATION OF PETITIONER’S MOTION
TO REMOVE 38 PAGES ADDED TO THE APPENDIX BY THE CLERK

William Golz, Ph.D.
Petitioner, Pro Se
29714 North 152nd Way
Scottsdale, Arizona 85262
Phone: (480) 816-5019

130 Beaver Creek Drive
Nederland, Colorado 80466
Phone: (303) 258-0443

[16a-sb]

Pursuant to Supreme Court Rule (Rule) 21.1, Petitioner respectfully re­
quests that the Court delay distribution of the petition, or if it has been distributed
recall the distribution of the petition and cancel any scheduled conference date,
pending the Court's consideration of Petitioner's motion to remove from the appen­
dix 38 pages added by the Clerk and for the other relief requested therein.

l. Facts
a. William Golz, Ph.D. (Dr. Golz)1 filed the petition for writ of certiorari
on May 13, 2021 with an appendix comprising numbered pages la-50a.
b. The documents docketed by the Clerk on June 1, 2021 link to an “Ap­
pendix” containing 38 pages that the Clerk added after page 50a. This is not the
appendix filed by Dr. Golz on May 13, 2021.
c. On June 3, 2021, Petitioner transmitted a letter by Federal Express to
the Clerk, copying the Solicitor General by email and first-class mail, moving the
Clerk to remove the 38 added pages. That letter was delivered by Federal Express
on June 4, 2021. That motion had not been docketed by 6:10 p.m., Eastern Daylight
Time, June 8, 2021.2
d. Because the Rules are silent on whether the Clerk must act on the
above motion, Dr. Golz, copying the Solicitor General, mailed a motion to the Court
on June 5, 2021 to direct the Clerk to correct the above irregularities (June-5 Mo­
tion). Exhibit 1, infra. Post Office records indicate that the June-5 Motion to the
Court had not been delivered by June 8, 2021.
1
2

William Golz earned his Ph.D. as a Louisiana Board of Regents' Fellow and has professional
degrees of M.S. and B.S. (cum laude) in civil engineering.
https://www.supremecourt.gov/search.aspx?filename=/docket/docketfiles/html/public/201670.html.
1
[17a-sb]

e. On June 7, 2021, the Solicitor General filed the Government's waiver
of its right to respond to Dr. Golz's petition subsequent to which a petition is typi­
cally distributed without delay.
2. Authorities
a. The Court has held that, “All suitors in this [C]ourt are bound by its
written rules, and its practice and decisions are established and known.” Richard­
son v. Green, 130 U.S. 104, 112 (1889).
b. Rule 1.1 states that, “The Clerk receives documents for filing with the
Court and has authority to reject any submitted filing that does not comply with
these Rules.” Rule 14.5 provides that, “If the Clerk determines that a petition sub­
mitted timely and in good faith is in a form that does not comply with this Rule [14]
or with Rule 33 or Rule 34, the Clerk will return it with a letter indicating the defi­
ciency.” There is no provision in the Rules that would authorize the Clerk to add to,
alter, or adulterate any document a litigant has filed with the Court.
c. The Rules are silent on whether the Clerk is required to act on Peti­
tioner's June 3, 2021 motion to correct the Clerk's irregularities. “The Supreme
Court, on the other hand, has inherent supervisory authority over its Clerk. ...
Thus, 'it is the right and duty of the Supreme Court to correct the irregularities of
its officer and compel him to perform his duty.' Griffin v. Thompson, 43 U.S. (2
How.) 244, 257, 11 L.Ed. 253 (1844), quoted in Borntrager[ v. Stevas], 772
F.2d[419, ] 420[ (8th Cir. 1985)].” In re Marin, 956 F.2d 339, 340 (D.C. Cir. 1992)
(ellipsis and brackets in original omitted).
2

[18a-sb]

3. Reasons for granting the requested relief
a. The appendix filed by Dr. Golz on May 13, 2021 is not the “Appendix”
docketed by the Clerk on June 1, 2021.
b. The Clerk lacks authority to file or distribute a petition that he has
added to, altered, or adulterated.

4. Relief requested
PETITIONER RESPECTFULLY REQUESTS that the Court delay distribution of
the petition, or if it has been distributed to recall the distribution of the petition and
cancel any scheduled conference date, pending the Court's consideration of Peti­
tioner's June-5 Motion to the Court to remove from the appendix 38 pages added by
the Clerk and for the other relief requested therein.

DATED this 8th day of June, 2021.
Respectfully submitted,

William Golz, Ph.D.
Petitioner, Pro Se

3

[19a-sb]

CERTIFICATE OF SERVICE
I hereby certify that, in conformance with the Supreme Court Order of
April 15, 2020 as updated November 13, 2020, one original of the motion to the
Court in William J. Golz v. Marcia L. Fudge, No. 20-1670, transmitted with this
certificate of service will be sent by Federal Express, shipping costs prepaid, to:
Office of the Clerk
Supreme Court of the United States
One First Street, N. E.
Washington, DC 20543
I further certify that one copy of the petition will be transmitted by
first-class mail, postage prepaid, to:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001
(202) 514-2203
I declare under penalty of perjury that the foregoing is true and correct
and that to the best of my knowledge all parties required to be served have been
served.
Executed on June 8, 2021.

William Golz, Ph.D.
Petitioner, Pro Se
29714 North 152nd Way
Scottsdale, Arizona 85262
Phone: (480) 816-5019

[20a-sb]

June 09, 2021

e
Dear Customer,

The following is the proof-of-delivery for tracking number: 773945338658

Delivery Information:

Status:

Delivered

Delivered To:

Shipping/Receiving

Signed for by:

J.HACKERTON

Delivery Location:

3035 V ST NE

Service type:

FedEx Priority Overnight

Special Handling:

Deliver Weekday

WASHINGTON, DC, 20543
Delivery date:

Jun 9, 2021 10:23

Shipping Information:
Tracking number

773945338658

Ship Date:

Jun 8,2021

Weight

Recipient:
CLERKS OFFICE, US SUPREME COURT
1 FIRST ST NE
Case No. 20-1670
WASHINGTON, DC, US, 20543

Shipper
William Golz,
29714 N 152nd Way
Scottsdale, AZ, US, 85262

[21a-sb]
Thank you for choosing FedEx

No. 20-1670

3ta

Supreme Court of tfje ®mtetr States;
William J. Golz,
Petitioner,
v.
Marcia L. Fudge,
in her official capacity as Secretary of the
United States Department of Housing
and Urban Development,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Tenth Circuit
PETITIONER’S MOTION TO THE COURT TO
COMPEL THE CLERK TO PERFORM HIS DUTY

[22a-sb]

Pursuant to Rule 21.1, Petitioner, William Golz (Dr. Golz),1 files this Mo­
tion to Compel the Clerk to Perform His Duty. The Clerk has not docketed motions
received by the Court on June 5, June 9, and June 10, 2021 which seek relief from
the addition of 38 pages to Petitioner’s appendix by the Court—a falsified2 appendix
which has now been published for over 30 days. It is relevant that those 38 added
pages are comprised by the recommendations of Magistrate Judge Michael E.
Hegarty who colluded with a lawyer on the District Court’s pro bono panel to violate
federal law, as documented in the declaration provided as Exhibit 1.
l. Facts
a. On May 13,3 Dr. Golz filed a petition for a writ of certiorari (Petition)
seeking review of the Tenth Circuit’s order and judgment based upon the de novo
reexamination of the District Court’s final order and judgment. The Petition in­
cluded the orders and judgments of both lower courts in an appendix with num­
bered pages la-50a and 56 total pages (Petitioner’s appendix).
b. A June-1 letter from the Clerk, Scott S. Harris, signed by Clayton Hig­
gins, Case Analyst, stated: “The petition for a writ of certiorari in the above entitled
case was filed on May 13, 2021 and placed on the docket June 1, 2021 as No. 201670.”
c. Mr. Higgins’ June-1 letter misrepresents the facts: the document
“placed on the docket on June 1” was not the appendix Petitioner had “filed on May
13” but one to which the Court added 38 pages (falsified appendix).
1
2
3

Ph.D. (Louisiana Board of Regents' Fellow), M.S., and B.S. (cum laude) in civil engineering.
Falsify. To make false by mutilation, alteration, or addition; to tamper with, as to falsify a
record or document. Black's Law Dictionary 542 (5th ed. 1979).
All dates are 2021.
1
[23a-sb]

d. On June 3, Petitioner transmitted a motion to Mr. Harris requesting
that he remove the falsified appendix (Motion to the Clerk). The Court signed for
receipt of that motion on June 4.
e. On June 5, Dr. Golz transmitted a motion requesting that the Court di­
rect the Clerk to remove the falsified appendix (Motion to Remove the falsified ap­
pendix). E.g., In re Marin, 956 F.2d 339, 340 (D.C. Cir. 1992) (“‘ [I]t is the right and
duty of the Supreme Court to correct the irregularities of its officer and compel him
to perform his duty.’ ”) (quoting Griffin et al. v. Thompson, 43 U.S. 244, 257 (1844))
(ellipsis and brackets omitted); Ibid. (“There is inherent in every court a power to
supervise the conduct of its officers”).
f. On June 7, the Court docketed the Government's waiver of right to re­
spond to the Petition.
g. On June 8, because the falsified appendix remained on the docket, Dr.
Golz moved the Court to delay distribution of the Petition (Motion to Delay Distri­
bution). The Court signed for receipt of that motion on June 9.
i. On June 10, the Court: (i) signed for receipt of the Motion to Remove
the falsified appendix and (ii) docketed a second copy of the falsified appendix.
k. As of the time this motion was signed, the falsified appendix had not
been removed from the docket nor had the Motion to the Clerk, Motion to Remove
the falsified appendix, or Motion to Delay Distribution been docketed.

2

[24a-sb]

2. Summary and Argument
a. Petitioner’s petition, motions, and all correspondence were addressed
to the Clerk, Scott S. Harris, whom, it appears, through his employee Mr. Higgins,
painstakingly created and then published the falsified appendix which, as of the
date this was signed, had been on the Supreme Court’s docket for more than 30
days. During this time, Mr. Harris has neither removed the falsified appendix nor
docketed the Motion to the Clerk, the Motion to Remove the falsified appendix, or
the Motion to Delay Distribution thus foreclosing Dr. Golz’s sole means of recourse
—a motion to the Court.
c. The willful and unlawful falsification or concealment of documents con­
travenes Court Rules and violates 18 U.S.C. § 2071, which provides, in pertinent
part, that:
(a) Whoever willfully and unlawfully conceals, removes,
mutilates, obliterates, or destroys, or attempts to do
so, or, with intent to do so takes and carries away any
record, proceeding, map, book, paper, document, or
other thing, filed or deposited with any clerk or officer
of any court of the United States, or in any public of­
fice, or with any judicial or public officer of the United
States, shall be fined under this title or imprisoned not
more than three years, or both.
(b) Whoever, having the custody of any such record, pro­
ceeding, map, book, document, paper, or other thing,
willfully and unlawfully conceals, removes, mutilates,
obliterates, falsifies, or destroys the same, shall be
fined under this title or imprisoned not more than
three years, or both; and shall forfeit his office and be
disqualified from holding any office under the United
States.
3

[25a-sb]

3. Relief Requested
Dr. Golz requests: (a) that the Court order Mr. Harris to immediately
docket the Motion to the Clerk, the Motion to Remove the falsified appendix, and
the Motion to Delay Distribution and (b) that the Court consider, and rule on, Peti­
tioner’s motions in the following order: (1) Motion to Compel the Clerk to Perform
His Duty; (2) Motion to Delay Distribution; and (3) Motion to Remove the falsified
appendix.

DATED this 3rd day of July, 2021.
Respectfully submitted,

William Golz, Ph.D.
Petitioner, Pro Se
29714 North 152nd Way
Scottsdale, Arizona 85262
Phone: (480) 816-5019

4
[26a-sb]

No. 20-1670
3fn ®f)e

Supreme Court of tfje ®ntteb States;
William J. Golz,
Petitioner,
v.
Marcia L. Fudge,
in her official capacity as Secretary of the
United States Department of Housing
and Urban Development,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Tenth Circuit
EXHIBIT 1 OF PETITIONER’S MOTION TO COMPEL
THE CLERK TO PERFORM HIS DUTY: DECLARATION
OF FACTS BY ANNETTE T. GOLZ AND WILLIAM GOLZ

[27a-sb]

William Golz (Petitioner and Defendant-Appellant below) earned his
Ph.D. at Louisiana State University as a Board of Regents' Fellow and has the pro­
fessional degrees of M.S. and B.S. (cum laude) in civil engineering. Dr. Golz is re­
tired from teaching.
Annette T. Golz (Ms. Golz) was a nurse and hospital central-supply direc­
tor and now represents a medical device manufacturer, providing service and teach­
ing for nurses in hospitals. Ms. Golz recorded, transcribed, and attested under
penalty of perjury to the truth of: (i) a series of voice messages recorded on the
Golzes’ home telephone by Denver Lawyer Meredith Callan on behalf of U. S. Magis­
trate Judge Michael E. Hegarty and (ii) a January 23, 2019 conference conducted by
Judge Hegarty where Ms. Callan was present.
INTRODUCTION
Michael E. Hegarty was the Civil Division Chief for the United States At­
torney's Office for the District of Colorado (USAO) from 2002 to 2006.

Kevin

Traskos joined the USAO in 2002, became Deputy Civil Division Chief in 2006, and
is the current Civil Division Chief. Mr. Hegarty became a United States Magistrate
Judge in 2006. Judge Hegarty's intern from May to August 2008 was Housing and
Urban Development (HUD) Trial Attorney Zachary Mountin. Attachment A, infra,
la-3a; U.S. Department of Justice archive, USAO/CO news (Apr. 7, 2007).
HUD and Mr. Traskos disregarded Dr. and Ms. Golz's summer-2016 let­
ters demanding that HUD stop sending agents to enter onto the Golzes’ fenced
1 https://www.justice.gov/archive/usao/co/news/2007/April07/traskos.pdf.
1
[28a-sb]

Property2 to look into their windows. Attachment B, infra, 4a, 05/11/—10/09/16. On
December 2, 2016, Nederland Det. Darragh O'Nuallain apprehended two men who
had broken through the front door and were inside the Golzes’ home. Attachment
B, infra, 4a-5a, 12/02/16. One of the men, Phillip Cuizon, used his cell phone to call
Zach whom instructed Det. O'Nuallain that the home had been foreclosed and HUD
had taken possession of the Property. Ibid. Based upon Zach’s false statement of
possession, Det. O'Nuallain agreed to join HUD’s men to make a thorough search of
the home where every door in the home was opened, including the garage. The
Golzes’ neighbor (Attachment B, infra, 5a, 12/07/16; and see id., at 12/27/16) arrived
before Det. O'Nuallain and witnessed the forcible entry and search.
A body of well-documented facts implicates Messrs. Traskos and Mountin
in the December 2, 2016 forcible entry and warrantless law-enforcement search.
E.g., Attachment B, infra. By requesting or accepting assignment of this case (1 R.
5: ECF No. 2),3 Judge Hegarty could bring his prejudices and human compassion for
his colleagues into the courtroom where he would be in a position to obfuscate facts
and obstruct the processes necessary to prove whether Mr. Mountin made materi­
ally false statements and whether Messrs. Traskos and Mountin were culpable for
improper involvement in the forcible entry and search. Judge Hegarty would, quite
simply, be in a position to head off the threat of grave legal and professional conse­
quences for two Government lawyers he had mentored.
2
3

Unincorporated Boulder County, situs address 130 Beaver Creek Drive, Nederland, Col­
orado (Property or home).
1 R. 5 cites to volume 1, record on appeal (R.), page 5, in Carson v. Golz, No. 19-1242 (10th
Cir. Sept, 21, 2020).
2
[29a-sb]

For the above reasons, at an April 16, 2018 hearing Dr. Golz requested
that Judge Hegarty disqualify himself. Judge Hegarty replied, “I'm not going to re­
cuse myself under any circumstances,” (4 R. 12:3—4).

Dr. Golz reminded Judge

Hegarty, that “what we're here about is decisions that you could make as to
whether or not the circumstances of this trespass were criminal, and the potential
consequences to Mr. Trascos [sic] and to Zachary Mountain [sic.]” Id., at 12:21-25.
Whether Judge Hegarty was motivated by the desire to protect his
mentees Messrs. Traskos and Mountin is immaterial to the record of facts which
clearly and convincingly show that Judge Hegarty: (i) colluded4 with Ms. Callan to
misrepresent that the District Court had jurisdiction over (and authority to require
licensed counsel for) an estate closed pursuant to state law and (ii) issued a minute
order showing a willful violation of D.C.COLO.LAttyR 15: Civil Pro Bono Represen­
tation (Attorney Rule 15) which when enacted became federal law.

PROCEEDINGS IN THE STATE PROBATE COURTS
On September 16, 2014, the Superior Court of Arizona, Maricopa County,
granted an application by Estate's counsel, Jon Kitchel, to admit Verna Mae Golz's
testamentary document to informal probate and to appoint Dr. Golz as PR. In re
Estate of Verna Mae Golz, PB2014-051759 (Ariz. Super. Ct. 2018); 2 R. 233. On
September 26, 2014, the District Court Boulder County, State of Colorado, admitted
Dr. Golz as PR by Certificate of Ancillary Filing. In re Estate of Verna Mae Golz,
2014-PR-160 (Boulder Cty. Dist. Ct. 2018); see 2 R. 321 HI 2-3.
4

Collusion. An agreement between two or more persons to defraud a person of his rights by
the forms of law, or to obtain an object forbidden by law. Black's Law Dictionary 240 (5th
ed. 1979).
3
[30a-sb]

On April 23, 2018, Dr. Golz acting as PR distributed the Estate’s only as­
set, the Property, to Dr. Golz, individually, with a PR's Deed. Boulder Cty. Recorder
No. 03651957 (Apr. 24, 2018); 2 R. 321. On May 2, 2018, Mr. Kitchel notarized Dr.
Golz's sworn oath on the Estate's Closing Statement that, “The Estate has been
fully administered [,] ” which was filed of even date in the Superior Court of Arizona,
Maricopa County. Supp. 2 R. 109 U 3.5
“In an unsupervised administration, the personal representative can dis­
tribute assets and close an estate informally and without court order. A.R.S. §§ 143704, 14-3933.” In re McGathy, 226 Ariz. 277, 278 (Ariz. 2010).

« I

Informal probate

is conclusive as to all persons until superseded by an order entered in a formal tes tacy proceeding,' (A.R.S. § 14-3302)(see Uniform Probate Code (U.L.A.) § 3-302).”
Matter of Estate of Torstenson, 125 Ariz. 373, 375 (Ariz. Ct. App. 1980) (brackets
omitted).
PROCEEDINGS IN THE FEDERAL DISTRICT COURT
At the April 16, 2018 hearing, Judge Hegarty stated that “at all times a
Federal Judge has to look at the jurisdiction that they have and the position of the
parties. And Federal Law says that an estate cannot be represented by a pro se liti­
gant, that it must be represented by an attorney” (4 R. 36:1—6), or “a default would
be entered against them and a default judgment, because I didn't make the rules
up, they just simply do not allow non-natural persons to be represented pro se.”
Id., at 36:14—17. Dr. Golz suggested that “a PR deed to the property from the Es5

Supp. 2 cites to supplemental volume 2.
4
[31a-sb]

tate to myself ... would eliminate the Estate, and I would be the sole remaining De­
fendant, and it would simplify matters.” Id., at 37:3—6.
A. Judge Hegarty fraudulently represented that his court had jurisdiction
to overrule the closing of the Estate
1. On April 25, 2018, Dr. Golz attached the PR's Deed to a motion to dis­
miss the Estate. The one-sentence motion concluded: “Plaintiffs foreclosure claim
attaches to the Property, and ... Defendant therefore moves the Court for the imme­
diate dismissal of the Estate as a party to this action.” 2 R. 305 If 2.
2. On May 7, 2018, Dr. Golz reiterated “that, as a matter of law, the
Court must dismiss the Estate” (Supp. 2 R. 104 f 2) and filed in the federal court a
copy of the Estate's Closing Statement (id., at 109-10) which had been executed by
Dr. Golz, acting as, “An administrator appointed by a state court [a]s an officer of
that court;” Byers v. McAuley, 149 U.S. 608 (1893).
3. “' Without jurisdiction' ”—to reopen the closed Estate—“' the court can­
not proceed at all in any cause. Jurisdiction is power to declare the law, and when
it ceases to exist, the only function remaining to the court is that of announcing the
fact and dismissing the cause.' Ex parte McCardle, 7 Wall. 506, 514 (1869).” Steel
Co. v. Citizens for Better Env't, 523 U.S. 83, 94 (1998).
4. Judge Hegarty had a ministerial duty to note for the record that the
Estate had been closed pursuant to state law and that HUD's foreclosure would pro­
ceed against Dr. Golz. Instead, on May 8, 2018, Judge Hegarty asserted jurisdiction
he did not have to overrule the closing of the Estate in a minute order which stated:

5
[32a-sb]

Dr. Golz filed a motion to dismiss the Defendant Estate of
Verna Mae Golz from this case ... resolution of Dr. Golz’s
motion may be contingent on whether he may properly
seek any relief on behalf of the Estate, which will be re­
solved with the Court’s consideration of the Plaintiffs
Statement [ECF No. 102] and Dr. Golz’ response to the
statement [see Minute Order, ECF No. 105].
Supp. 2 R. 117 (brackets in original).
5. As Dr. Golz’s May 22, 2018 reply in support of dismissal explained (id.,
at 168 If 2), the “motion to dismiss the Estate should have been evaluated pursuant
to ... Fed. R. Civ. P. 12(b)(1), for lack of subject-matter jurisdiction:” because the
District “ Court [ ] lacks subject matter jurisdiction to interfere in the probating or
administration of a will. See, e.g., Byers v. Mcauley, 149 U.S. 608 (1893); see also,
e.g., Sutton v. English, 246 U.S. 199 (1918).” Supp. 2 R. 169

2.

6. Even if Dr. Golz had not challenged Judge Hegarty’s jurisdiction,
“Courts have an independent obligation to determine whether subject-matter juris­
diction exists, [ in this case, to reopen probate administration,] even when no party
challenges it. Arbaugh v. Y & H Corp., 546 U.S. 500, 514[ ] (2006)[.]” Hertz Corp.
v. Friend, 559 U.S. 77, 94 (2010). Judge Hegarty had previously acknowledged this
duty on April 16, 2018, see supra, when he stated, “at all times a Federal Judge has
to look at the jurisdiction that they have and the position of the parties.”
7. Just as any licensed driver knows that they cannot use the sidewalk as
a traffic lane, Judge Hegarty knew that his federal court lacked any jurisdiction: (a)
to overrule Dr. Golz’s act as an officer of the State Court to close the Estate (e.g., In
re McGathy, 226 Ariz., at 278) or (b) to maintain any cause of action against the
closed Estate absent its reopening, by “'an order entered in a formal testacy pro­
ceeding,'” in an Arizona State Court. Estate of Torstenson, 125 Ariz., at 375.
6

[33a-sb]

B. Judge Hegarty colluded with Ms. Callan in the misrepresentation that if
Dr. Golz did not obtain licensed counsel for the closed Estate the court
could enter a default judgment in favor of HUD
1. Meredith Callan instructed Dr. Golz that, “I was contacted by Judge
Hegarty” and “You do need representation on the Estate matter ”
a. On December 19, 2018, Dr. Golz received an email and letter from a
person he had never heard of, Meredith Callan, whom stated that, “Judge Hegarty
recommended that I contact you regarding 17-CV-01152 ” (3 R. 400-06).
b. Three weeks later, on January 8, 2019, Ms. Callan recorded the follow­
ing voice-message on the Golzes’ home telephone:
This is for William Golz. My name is Meredith Callan,
my phone number is 720-636-0696. I’m an attorney in
Denver. I’ve been trying to get a hold of you. I sent you
an email and a letter to your address in Arizona. I was
contacted by Judge Hegarty to assist you on your case.
You do need representation on the Estate matter.
1 R. 20:ECF No. 174 (audio CD); 3 R. 409-10 (verbatim transcript and 28 U.S.C. §
1746 declaration). On January 11, 2019, Ms. Callan recorded another voice mes­
sage on the Golzes’ home telephone. 1 R. 20:ECF No. 174 (audio CD); 3 R. 411—12
(verbatim transcript and 28 U.S.C. § 1746 declaration).
2. Judge Hegarty stated, at a conference with Ms. Callan present, that
“the Government is simply going to win this case because an estate
can’t represent itself. It has to be represented by a lawyer ”
a.

When Dr. Golz did not reply to Ms. Callan's email, letter, and voice

messages, Judge Hegarty scheduled a January 23, 2019 conference (Conference).
“Meredith” (Supp. 2 R. 675:17) was present at the Conference when Judge Hegarty
pronounced from the bench:
7

[34a-sb]

I actually have a lawyer here - in the courtroom - who's
willing to represent [the] estate ... But it looks like the
Government is simply going to win this case because an
estate can’t represent itself. It has to be represented by a
lawyer and not by a natural person. [Id., at 675:2-8.] I’ll
be issuing an order to show cause why a default should
not be entered for Mr. Golz and the Estate of Verna Mae
Golz failure to appear at a scheduled court hearing. [Id.,
at 676:11-13.]
b. Dr. Golz served Ms. Golz’s audio recording and verbatim transcript of
the Conference on HUD (3 R. 427-37) through its counsel, Assistant United States
Attorney (AUSA) Jasand Mock, who had initiated the phone call and was present
during the Conference. See also Supp. 2 R. 629—49. AUSA Mock and HUD had
more than three months to review the audio and to produce their own transcription
and requested no corrections (id., at 652) in Dr. Golz's statement of evidence for the
Conference. Id., at 654—77.
C. Judge Hegarty’s minute order identifying “Meredith Callan, [as] pro
bono counsel contacted to represent the Estate ” demonstrates a willful
violation of Attorney Rule 15 which is federal law
1. On the day of the Conference, January 23, 2019, Judge Hegarty issued
a minute order stating that, “Meredith Callan, pro bono counsel [was] contacted to
represent the Estate of Verna Mae Golz.” Id., at 385. Judge Hegarty knew that the
Estate had been closed since May 2, 2018, and that he knew the requirements of At­
torney Rule 15 (3 R. 107-15) is demonstrated clearly in Trujillo v. City of Denver,
No. 14-cv-02798-RBJ-MEH (D. Colo. Nov. 6, 2015).
2. As noted in Trujillo, supra, at *2, “This district has a Civil Pro Bono
Program .... In cases deemed appropriate the court through the Clerk's Office con­
tacts the volunteer panel” (Attorney Rule 15(0). (emphasis added).

In Trujillo,

8

[35a-sb]

Judge Hegarty granted a motion, “for the appointment of pro bono counsel to repre­
sent ... plaintiff, Ms. Trujillo, an impecunious and, so far as the record shows,
legally unsophisticated person.” Id,., at *2 & *4; see Attorney Rule 15(e).
3. Dr. Golz did not request, and he made no motion to the court, for pro
bono counsel, nor did Judge Hegarty enter the required “Appointment Order autho­
rizing appointment of a member of the Panel to provide general or limited represen­
tation,” (Attorney Rule 15(f)(1)(A)).
4. As to the threshold requirement of eligibility, Judge Hegarty knew
that Ms. Golz had written checks to HUD in the amount of $118,750 and that Dr.
Golz would not, therefore, have been “eligible for appointment of pro bono counsel
because he could not “demonstrat[e] limited financial means,” (Attorney Rule 15(e)

(D(C)).
5. “A district court has discretion to adopt local rules. Frazier v. Heebe,
482 U.S. 641, 645[ ] (1987) (citing 28 U.S.C. § 2071; Fed. Rule Civ. Proc. 83). Those
rules have 'the force of law.

Weil v. Neary, 278 U.S. 160, 169[ ] (1929).”

Hollingsworth v. Perry, 558 U.S. 183, 191 (2010).
DECLARATION
Each of us individually and under penalty of perjury declare that to the
best of our knowledge and ability the foregoing facts are true and correct. Executed
July 3, 2021.

William Golz, Ph.D.

Annette T. Golz
9

[36a-sb]

ATTACHMENT A

[37a-sb]

12

Colorado Bar
y Association

CBA Home

mmIkCLE
Seminars

CBA-CLE ;s the nonprofit educational amt of the
Colorado Bat Association and the Denver Bar Association

Homestudies

Practice Area w

New Lawyers ▼

CLE Pass

About / Faculty & Authors / Info

Michael E. Hegarty
U.S. District Court (D-CO)
Honorable Michael Hegarty is a graduate of Kansas State University (BA 1982, cum iaude, Phi Beta
Kappa) and the University of Kansas School of Law (J.D. 1986, Order ofthe Coif). He was on the editorial
board of the Kansas Law Review. His education includes one year of graduate study at Justus Liebig
Universitaet in Giessen, Germany, judge Hegarty clerked for U.S. District Judge Dale Saffels (District of
Kansas) from 1986-88. Following this judicial clerkship, judge Hegarty worked as an Associate Attorney with
the Washington, D.C. law firm of Arnold & Porter from 1988-90. His primary areas of practice were
environmental and antitrust law. In 1990, Judge Hegarty transferred to the Denver office of Arnold &
; Porter, where his practice centered on environmental and natural resource law and securities fraud. In
1992, Judge Hegarty became an Assistant U.S. Attorney in the District of Colorado. His areas of practice
included defending the United States and its agents in civil litigation, including employment discrimination,
personal injury, federal appeals. Administrative Procedure Act suits, natural resource law, immigration
cases, Social Security disability cases, Privacy Act/FOIA, prisoner habeas and Bivens claims, and other
constitutional torts. He became the Chief of the Civil Division of the U.S. Attorney's Office in 2002 and
[remained in that position until 2006. On February 15,2006, judge Hegarty was sworn in as a United States
Magistrate Judge for the District of Colorado. He was reappointed for a second term of eight years effective
February 15,2014.
: (06/18)

Hegarty, Michael E., United States Magistrate Judge. Faculty & Authors, Colorado
Bar Association, CLE, (Nov. 7, 2018), available at https://cle.cobar.org/About/Facultv-Authors/Info/CnSTQMERCD/30055

[la]
[38a-sb]

r

Colorado Bar
Association

,CLE
Seminars

CBA Home
CBA-CLE "S the nonprofit edacaiais- j>m of the
Co'cratto Bar Association and the Denver Bar Association

Homestudies

Practice Area

New Lawyers "*■

CLE Pass

About f Faculty & Authors / Info

Kevin T. Traskos
US Attorney's Office - District of Colorado
Kevin Traskos, Esq., is the Chief of the Civil Division at the United States Attorney’s Office for the District of
Colorado, where he manages attorneys who represent the federal government in civil lawsuits brought by
or against the government Kevin graduated from Yale University in 1992 and from the University of
Michigan Law School in 1995. From 1995 to 1997 he served as a law clerk in the Southern District of New
York for the Honorable Louis StantonlHegjggicedas^ivinih^gtor^rswera^earsat Arnold & Porter inj
[Washington, D.C. and Denver beforq^p^gtheUnitedStatesMtorn^sOffice in 2002. Since joining the
office, he has handled a wide variety oFcases and has received a number of awards, including winning the
Attorney General's Award, the Department ofjustice’s highest award, three times. He has served as a
Director on the Board of the Faculty of Federal Advocates. He has also served on the U.S. District Court's
Committee on Conduct from 2011 to 2016, and served as that Committee's Chair from 2014 to 2015.
(11/17)

Traskos, Kevin T., Chief of the Civil Division, United States Attorney's Office for
the District of Colorado. Faculty & Authors, Colorado Bar Association, CLE, (Nov. 7,
2018), available at httns://cle.cohar.org/About/Facultv-Authors/Info/CUSTOMERCD/
259440

(

[2a]
[39a-sb]

[51

Ip ft Search

tted-Oevfce Layoff*? - Ex-Urt dev rep Dtrtldi jS^UM rewyr eentorcerv buelnees - now

Zach Mountin

■

Denver, Colorado
Connect

HUO
Urvvemy of Colorado School
of Law

Trial Attorney at HUD

{3 See contact info

H

£fij 413 canneciorn

Experience

m

HUD
fiyn < not
Trial Attorney
lAay 2012 - Prtaer* * 6 yre 7 not
Attorney Advisor
Sep 2011 - May 2012 * 9 mos
legal Honors Attorney
Aug 2010“ Aug 2011 • 1 <gt 1 no

□
□

Law Clerk to Justice Melissa Kart
Colorado Supreme Court
tan 2010-Aug 201fi« 0 tret

Law Clerk

ReiSy Pozner HP
May 2X9 -Jun2O10 • 1 jr2 not

€dftor*fn-Ch#fff
University of Colorado Law Review
feb2309 Li^2013'1w4r*x

D*

University of Colorado Law School: Juvenile Law Clinic
10 mas
Student Attorney
Aug 2006-My2009- tons
Research Assistant far Pmt Mc&sa Mart
Aug 2053-M» 2009-Onuc

□

Summerlrtttm
Dearie cf Colorado Chambers cf Magisuvie Judge Michael Fegart/
i 't'fc

4 TV!-.

J

Mountin, Zachary P., HUD Trial Attorney. LinkedIn, (Nov. 7, 2018), available at https://www.linkedin
■com/in/zmountin/

[3a]
[40a-sb]

ATTACHMENT B

[41a-sb]

TABLE la. The forcible entry and warrantless search of the Golz home.

Date

Description

Reference

05/11 &
06/06/16

Dr. and Ms. Golz's June 6, 2016 letter to HUD Secretary
1 R. 270
Julian Castro and Novadla responding to HUD's May 11
and June 6 door hangers directed HUD to cease entering KK 122-23
onto the fenced Property without obtaining permission.

06/15/16

The Golzes received a letter stating that the loan had
been referred to the USA02a for collection.

06/27/16

By June 27, 2016, Dr. and Ms. Golz had transmitted 139
pages of documentation to Mr. Traskos including notices
that the Golzes were occupying the Property, requests to
pay off the loan, and demands that Mr. Traskos instruct
HUD to cease its unlawful entries onto the Property.

07/06/16

HUD defied the Golzes' letters, trespassed on the fenced
Property, and peered into the windows.

07/12/16

By July 12, 2016, Dr. and Ms. Golz had transmitted 47
more pages of documentation to Mr. Traskos including
additional notices that the Golzes were occupying the
home, that they intended to pay off the loan, and that
HUD must cease trespassing on the fenced property.

08/01 &
08/02/16

1 R. 270
Dr. Golz’s 12-page transmittal to Secretary Castro, Novad, and Mr Traskos stated: “You are hereby advised IK 124-25;
2 R.
that any entry onto my property ... is an illegal trespass
112-25
prosecutable under §§ 4-502 to 504, 18 C.R.S.”

10/09/16

Dr. Golz advised the USAO that “his family was occupy­
ing the Property and that: ' HUD dispatched their
agents to trespass on our property - on May 11th, June
6th, and July 6th, ignoring my repeated written instruc­
tions to cease and desist [.] I ”

2 R. 482

3R. 211 3
to
22 HI

1 R. 271
K 126
& n.16

Nederland Det. Darragh O'Nuallain apprehended two
men in the Golz home, whom admitted to forcibly enter­
1 R. 271-72
12/02/16
ing and installing a “HUD lock” and, as authority for
KK 127-29
(cont. infra)
those acts, presented HUD documents. Exhibits A and
B, cited infra.

la Novad is HUD’s mortgage servicer.
2a United States Attorney’s Office for the District of Colorado.
[4a]
[42a-sb]

“Housing and Urban Development Property Access
Record”; “Property Address: 130 Beaver Creek Dr.”;
“Date 12-2-2016”; “Representative of BLM CO”.

1 R. 278

“New Work Order Assigned 03201115”; “Address: 130
Beaver Creek Drive”; “W/O Date: 12/1/2016”; “Vendor:
RAREO - Phillip Cuizon”; “Property [ ]: Acquisition”;
“Management by: Terrah.Anderson@blmco.com”.

1R.
279-80

“Zach”3a falsely stated to Det. O'Nuallain that “the home
had been foreclosed and HUD had taken possession of the
Property.” (internal quotations marks and brackets omit­
ted).

1 R. 272
! 129 &
n.17

12/07/16

BCS04a Deputy Brunkow’s report documented damage to
the “Property ... PHOTOS OF DOORS” and listed “Witness2: DAndrea, Deborah Lee” the Golzes' neighbor
whom witnessed the forcible entry by Messrs. Cuizon and
Scott and their search with Det. O'Nuallain.

1 R. 371

12/27/16

BCSO Sgt. Manes emailed BLM manager Tracy Willing­
ham: “We need to speak with you ASAP” about “130
1 R. 273
Beaver Creek Dr. ... case number 16-7379 ... burglary/
nn.18,19 &
trespass, criminal mischief and other property damage
281-82
associated with two persons employed by BLM CO ...
Work order assignment 03201115.”

12/02/16

12/06
&

12/07/17

Dec. 6: Dr. Golz emailed Zach Mountin and Jasand Mock:
“I will therefore appreciate your both replying ... so that
I can assure Annette that HUD will not repeat its actions
Supp. 2 R.
of December-2, 2016.”
364
Dec. 7: Mr. Mock, copying Mr. Mountin, replied: “HUD
has a contractual right under the Deeds of Trust to enter
upon and manage the property.”
Dr. Golz's Dec.-7 letter, responding to Messrs. Mountin
and Mock's email of Dec. 7, stated: “HUD's forced entry
... was an intentional and unlawful entry into the Attach. C,
'dwelling of another' which is felony trespass (C.R.S. §
infra
[18-] 4-502) chargeable against the person or persons that
issued the order for, or provided aid and advice to facili­
tate, the December-2, 2016 break-in at the Property.”

3a Zach Mountin is a former HUD Trial Attorney (Attach. A, supra, 3a) and former agency
counsel for this case. Supp. 2 R. 11.
4a Boulder County Sheriffs Department.
[5a]
[43a-sb]

ATTACHMENT C

[44a-sb]

Case l:17-cv-01152-RBJ-MEH Document 129 Filed 01/03/19 USDC Colorado Page 51 of 55

Date December 7,2017
From William Golz, Ph.D.
To Zachary Mountin, Esq.
Jasand Mock, Esq.
Via Email
Re December-7,2017,11:54 a.m., email from Mr. Jasand Mock,
Dear Messrs. Mountin and Mock:
In the subject email, to which this letter is attached, Mr. Mock states that the Department of
Housing and Urban Development (“HUD”) “has a contractual right under the Deeds of Trust to
enter upon and manage the property[,]” which would, at most, apply to “vacant or abandoned
property.”
As detailed in my correspondence to HUD and the US Attorney's Office for the District of
Colorado - see, e.g., Amended Answer to Amended Complaint, ECF 64
122-131 - even if
my late mother's signature were to have given HUD as the lender the right to break into her
occupied home while she was alive - which it did not under state law and there is no basis for
federal preemption - whether my family were to be regarded as the Property owners or as tenants
of the estate, HUD was not permitted to forcibly enter into our home absent their complying with
HUD policy (HUD Handbook 4000.1, III.A.2.s.viii) and the Colorado Forcible Entry and
Detainer statute (C.R.S. § 13-40-101 et seq.) which require completion of a foreclosure sale and
a court order. HUD's forced entry complied with neither and was an intentional and unlawful
entry into the “dwelling of another” which is felony trespass (C.R.S. § 4-502) chargeable against
the person or persons that issued the order for, or provided aid and advice to facilitate, the
December-2,2016 break-in at the Property.
The proposition that “HUD has a contractual right under the Deeds of Trust to enter upon and
manage the property” when it is occupied is self defeating. As you know, any contract clause,
including in the Deeds of Trust, that purports to require or permit any act that violates a statute,
especially a criminal statute, is unenforceable and void as to that clause ab initio. It is not,
however, my intent to educate you in the law with this letter, and the matter of die legal status of
HUD's forced entry is now before the court in HUD's judicial foreclosure action and will be
again in our court action under the Federal Tort Claims Act.
The reason for my email to which you replied was to request your assurance that HUD would
not break into our home again so that I could calm my wife Annette whose condition, as I have
explained, is fragile, due in large part to HUD's trespass at our Property one year ago. Annette,
checking my email because I was out of town, read your statement that HUD had “a contractual
right under the Deeds of Trust to enter upon” her Property and became very upset.
Sincerely,

William Golz, Ph.D.

[6a]
[45a-sb]
D5

CERTIFICATE OF SERVICE
This Certificate of Service transmits the Motion to Compel the Clerk to
Perform His Duty (Document) to be filed in the case captioned William J. Golz v.
Marcia L. Fudge, No. 20-1670.

I hereby certify that, in conformance with the

Supreme Court Order of April 15, 2020 as updated November 13, 2020, one original
of the Document will be sent by first-class mail (Certified No. 7019 2280 0000 9013
0934), postage prepaid, to:
Supreme Court of the United States
One First Street, N. E.
Washington, DC 20543
I further certify that one copy of the Document will be transmitted by
first-class mail, postage prepaid, to:
Elizabeth B. Prelogar
Acting Solicitor General
Room 5616, Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001
(202) 514-2203
I declare under penalty of perjury that the foregoing is true and correct
and that to the best of my knowledge all parties required to be served have been
served.
EXECUTED July 3, 2021.

William Golz, Ph.D.
Petitioner, Pro Se
29714 North 152nd Way
Scottsdale, Arizona 85262
Phone: (480) 816-5019
[46a-sb]

m

UNITED STATES
POSTAL SERVICE

July 8, 2021
Dear William Golz:
The following is in response to your request for proof of delivery on your item with the tracking number:

7019 2280 0000 9013 0934.
Item Details
Status:
Status Date / Time:
Location:
Postal Product:
Extra Services:

Delivered
July 8, 2021,11:17 am
WASHINGTON, DC 20543
Priority Mail
Certified Mail™
Insured
Return Receipt Electronic

Recipient Signature
o—wryawaoH

Signature of Recipient:

%slld

■
a *»•

Address of Recipient:

l

i

Note: Scanned image may reflect a different destination address due to Intended Recipient's delivery instructions on file.

Thank you for selecting the United States Postal Service® for your mailing needs. If you require additional
assistance, please contact your local Post Office™ or a Postal representative at 1-800-222-1811.
Sincerely,
United States Postal Service
475 L'Enfant Plaza SW
Washington, D.C. 20260-0004

[47a-sb]

STATEMENT OF FACTS
1. On June 25, 2021, Dr. and Ms. Golz requested from the Clerk of the
U. S. District Court for Colorado the order appointing the panel to consider Magis­
trate Judge Hegarty’s reappointment (Order).
2. The Order was postmarked in Denver, CO on June 30, 2021 and was
received by Dr. and Ms. Golz in their mailbox on July 3, 2021 upon their return
home after they had mailed the Motion to the Court to Compel the Clerk to Perform
His Duty (Motion).
3. Had Dr. and Ms. Golz been in receipt of the Order, it would have been
included as Attachment D to Exhibit 1 in the Motion.
4. This declaration (p. 7a), the Order (p. 8a), and the envelope (p. 9a)
should be designated as Attachment D to Exhibit 1 of the Motion.
DECLARATION
Each of us individually and under penalty of perjury declare that to the
best of our knowledge and ability the foregoing facts are true and correct. Executed
July 4, 2021.

William Golz, Ph.D.
29714 North 152nd Way
Scottsdale, Arizona 85262
Phone: (480) 816-5019

Annette T. Golz
29714 North 152nd Way
Scottsdale, Arizona 85262
Phone: (480) 816-5019

[7a]
[48a-sb]

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
ORDER APPOINTING MAGISTRATE
JUDGE SELECTION PANEL
In accordance with Volume 3, Chap. 4, § 420 of the Judicial Conference Regulations
governing the Selection, Appointment, and Reappointment of United States Magistrate Judges,
and having advised all panel members of restrictions imposed by Judicial Conference
Regulations regarding their eligibility for future magistrate judge positions, it is
ORDERED that the following persons are appointed as the Merit Selection Panel to
consider whether Magistrate Judge Michael E. Hegarty should be reappointed:
The Hon. Christopher C. Cross (ret.), Chairperson
Shirley A. Algiene, Ph.D.
Ryan T. Bergsieker, Esq.
The Hon. Laurie K. Dean
Jeffrey S. Hurd, Esq.
Shawna Killen
Susan S. Sperber, Esq.
Kathryn Starnella, Esq.
Kevin Traskos, Esq.
It is FURTHER ORDERED that the panel shall review Magistrate Judge Hegarty’s
service, his other experience, the comments from members of the bar and public, and other
evidence of the incumbent’s good character, experience, ability, and commitment to equal justice
under the law.
It is FURTHER ORDERED that the panel shall submit its report to the Court on or
before September 24, 2021, unless otherwise directed by the Court, as to whether the incumbent
is recommended for reappointment.
DATED at Denver, Colorado this 24th day of June, 202 L
BY THE COURT:

Philip A. Brimmer
Chief United States District Judge

[8a]
[49a-sb]

\Vt

DENVER CO 802

OFFICE OF THE CLERK

UNITED STATES DISTRICT COURT

30 JUN 2021 PM 51

ALFRED A. ARRAJ COURTHOUSE

f:r$t-class mail

neopost/r
06/29/2021

OisreersiT/gsa

$00,512

901-19TH ST., ROOM A105
h

DENVER, CO 80294-3589
OFFICIAL BUSINESS

Annette T. Golz
William Golz, Ph.D.
29714 North 152nd Way
Scottsdale, AZ 85262

1

SB2B2-6342i4
CD

^.

i

I

I

Oi

o
p

w

,cr

i

ZIP 80294
041L1124508?

CERTIFICATE OF SERVICE
This Certificate of Service transmits Exhibit 1, Attachment D of the
Motion to Compel the Clerk to Perform His Duty (Document) to be filed in the case
captioned William J. Golz v. Marcia L. Fudge, No. 20-1670. I hereby certify that in
conformance with the Supreme Court Order of April 15, 2020 as updated November
13, 2020 one original of the Document will be sent by first-class mail (Certified No.
7019 2280 0000 9007 8502), postage prepaid, to:
Supreme Court of the United States
One First Street, N. E.
Washington, DC 20543
I further certify that one copy of the Document will be transmitted by
first-class mail, postage prepaid, to:
Elizabeth B. Prelogar
Acting Solicitor General
Room 5616, Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001
(202) 514-2203
I declare under penalty of perjury that the foregoing is true and correct
and that to the best of my knowledge all parties required to be served have been
served.
EXECUTED July 4, 2021.

William Golz, Ph.D.
Petitioner, Pro Se
29714 North 152nd Way
Scottsdale, Arizona 85262
Phone: (480) 816-5019
[51a-sb]

UNITED STATES
POSTAL SERVICE

July 12, 2021
Dear William Golz:
The following is in response to your request for proof of delivery on your item with the tracking number:

7019 2280 0000 9007 8502.
Item Details
Status:
Status Date / Time:
Location:
Postal Product:
Extra Services:

Delivered
July 12, 2021,6:45 am
WASHINGTON, DC 20543
First-Class Mail
Certified Mail™
Return Receipt Electronic

Shipment Details
Weight:

2.0oz

Recipient Signature
I

Signature of Recipient:

Address of Recipient:
Note: Scanned image may reflect a different destination address due to Intended Recipient's delivery instructions on file.

Thank you for selecting the United States Postal Service® for your mailing needs. If you require additional
assistance, please contact your local Post Office™ or a Postal representative at 1-800-222-1811.
Sincerely,
United States Postal Service®
475 L'Enfant Plaza SW
Washington, D.C. 20260-0004

[52a-sb]

29714 North 152nd Way
Scottsdale, Arizona 85262
Phone: (480) 816-5019

William Golz, Ph.D.
July 3, 2021

Via Certified Mail No. 7019 2280 0000 9007 8274
Honorable John G. Roberts
Chief Justice of the United States
Supreme Court of the United States
One First Street, N. E.
Washington, D.C. 20543
Re: Complaint regarding the Clerk of the Court.
Dear Chief Justice Roberts:
I received a June 1, 2021 letter signed by a case analyst Clayton Hig­
gins on behalf of the Clerk, Scott S. Harris, asserting that the Court had
docketed my petition filed on May 13, 2021. Golz v. Fudge, No. 20-1670. The
petition’s appendix consists of 56 total pages with numbered pages la-50a.
The Court added 38 pages following page 50a and has published the falsified
appendix on the docket for over 30 days. The facts are set forth in detail in
the enclosed motion and its exhibit.
Sincerely,

William Golz, Ph.D.
Enel: (1) Motion to the Court to compel the clerk to perform his duty.

[53a-sb]

UNITED STATES
POSTAL SERVICE

July 15, 2021

[Transmittal to C. J. of Mot. to Court to compel Clerk (with Exh. 1 & Attach A-C)]
Dear William Golz:
The following is in response to your request for proof of delivery on your item with the tracking number:
7019 2280 0000 9007 8274.
Item Details
Status:
Status Date / Time:
Location:
Postal Product:
Extra Services:

Delivered
July 15, 2021, 11:12 am
WASHINGTON, DC 20543
Priority Mail®
Certified Mail™
Insured
Return Receipt Electronic

Shipment Details
Weight:
\... .. ....
Recipient Signature

Signature of Recipient:

5.9oz

‘ i.VM ttkWSjA/
**nr

Address of Recipient:

iii

pv-1

ft

:mm

Note: Scanned image may reflect a different destination address due to Intended Recipient's delivery instructions on file.

Thank you for selecting the United States Postal Service® for your mailing needs. If you require additional
assistance, please contact your local Post Office™ or a Postal representative at 1-800-222-1811.
Sincerely,
United States Postal Service®
475 L'Enfant Plaza SW
Washington, D.C. 20260-0004

[54a-sb]

APPENDIX J

m

UNITED STATES
POSTAL SERVICE

July 12, 2021

[Transmittal to C. J. of Attach D of Exh. 1 of Mot. to Court to compel Clerk]
Dear William Golz:
The following is in response to your request for proof of delivery on your item with the tracking number:
7019 2280 0000 9007 8519.
Item Details
Status:
Status Date / Time:
Location:
Postal Product:
Extra Services:

Delivered
July 12, 2021,6:45 am
WASHINGTON, DC 20543
First-Class Mail
Certified Mail™
Return Receipt Electronic

Shipment Details
Weight:

2.0oz

Recipient Signature

n

Signature of Recipient:
Vt

Address of Recipient:

i

JT
1

n

s

Note: Scanned image may reflect a different destination address due to Intended Recipient's delivery instructions on file.

Thank you for selecting the United States Postal Service® for your mailing needs. If you require additional
assistance, please contact your local Post Office™ or a Postal representative at 1-800-222-1811.
Sincerely,
United States Postal Service®
475 L'Enfant Plaza SW
Washington, D.C. 20260-0004

[55a-sb]

1

\7

CERTIFICATE OF SERVICE
This certificate of service transmits Petitioner’s supplemental brief and
its appendix to be filed in William J. Golz v. Marcia L. Fudge, No. 20-1670. In con­
formance with the April 15, 2020 Order, the November 13, 2020 Guidance, and the
July 19, 2021 Order, one copy of the supplemental brief and its appendix will be
transmitted, costs prepaid, to each named addressee by the means listed below:
Addressee
Scott. S. Harris

Carrier and Tracking

Clerk of the Court
U. S. Supreme Court
One First Street, N. E.
Washington, DC 20543

Elizabeth B. Prelogar
Acting Solicitor General
Counsel for Respondent Room 5616, Dep’t. of Justice
Phone: (202) 514-2203 950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001

USPS First-Class Mail
Certified No.
7019 2280 0000 9007 8256

USPS First-Class Mail

I declare under penalty of perjury that the foregoing is true and correct
and that to the best of my knowledge all parties required to be served have been
served.
EXECUTED August 23, 2021.

W
William Golz, Ph.D.
Petitioner, Pro Se
29714 North 152nd Way . AUG 27 207' K
Scottsdale, Arizona 85262 1 «fficeof t^rtTus.,
Phone: (480) 816-5019
^--------

